<html>
<title> - CONSIDERATION AND APPROVAL OF THE INSPECTOR GENERAL AUDIT PLAN FOR 2002, AND THE CREATION OF THE OFFICE OF HISTORY AND PRESERVATION WITHIN THE OFFICE OF THE CLERK</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
  CONSIDERATION AND APPROVAL OF THE INSPECTOR GENERAL AUDIT PLAN FOR 
2002, AND THE CREATION OF THE OFFICE OF HISTORY AND PRESERVATION WITHIN 
                        THE OFFICE OF THE CLERK
=======================================================================



                            BUSINESS MEETING

                               before the

                              COMMITTEE ON
                          HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

             Hearing Held in Washington, DC, June 26, 2002

                               __________


         Printed for the use of the Committee on Appropriations

                                 ________

                           U.S. GOVERNMENT PRINTING OFFICE
84-512                         WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









                   COMMITTEE ON HOUSE ADMINISTRATION

                           BOB NEY, Chairman
VERNON J. EHLERS, Michigan           STENY H. HOYER, Maryland
JOHN L. MICA, Florida                  Ranking Minority Member
JOHN LINDER, Georgia                 CHAKA FATTAH, Pennsylvania
JOHN T. DOOLITTLE, California        JIM DAVIS, Florida
THOMAS M. REYNOLDS, New York
                     Paul Vinovich, Staff Director
                  Bill Cable, Minority Staff Director
















                            BUSINESS MEETING

                              ----------                              


                        WEDNESDAY, JUNE 26, 2002

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 2:10 p.m., in Room 
1310, Longworth House Office Building, Hon. Robert W. Ney 
(chairman of the committee) presiding.
    Present: Representatives Ney, Ehlers, Hoyer and Fattah.
    Staff present: Jeff Janas, Professional Staff Member; 
Channing Nuss, Deputy Staff Director; Fred Hay, Counsel; Melody 
Hildebrandt, Intern; Bill Cable, Minority Staff Director; Matt 
Pinkus, Minority Professional Staff Member; Sterling Spriggs, 
Minority Technical Director; and Nuku Ofori, Staff of Mr. 
Fattah.
    The Chairman. The committee will come to order. Today, the 
Committee on House Administration is conducting a business 
meeting to consider and approve the Inspector General Audit 
Plan for 2002 and a proposal by the Clerk of the House, Mr. 
Trandahl, to create the Office of History and Preservation, a 
new department within the Office of the Clerk.
    We will begin with the first item on the agenda, 
consideration and approval of the Inspector General Audit Plan 
for 2002.
    The Inspector General is responsible for performing audits 
of the financial and administrative functions of the House and 
joint entities, suggesting appropriate actions when warranted 
as a result of the audits, and reporting the results of the 
audits back to the Committee on House Administration as part of 
our oversight responsibilities of House operations. Working 
closely with House Administration and our House officers, the 
Office of the Inspector General focuses its efforts on issues 
of strategic importance to the House.
    The Inspector General's objective, valued-added service to 
managers has helped to significantly improve financial 
management; House administrative processes; workplace issues 
related to health and safety; and the security, control, and 
integrity of the computer networks' operating and application 
systems and the data that they contain, which is so important 
to the House and the citizens of the United States.
    The plan before the committee today for review and approval 
will continue that important work on behalf of the U.S. House. 
At the direction of the Committee on House Administration, the 
audit plan as presented will focus on the key themes of life 
safety, information security, and customer service to our House 
Members and staff.
    We will also be evaluating several emerging technologies in 
the predeployment stage, including digitized mail, as we deploy 
new technology to enhance the speed and effectiveness of our 
work force in the House of Representatives.
    I would like to thank the members of this committee and our 
committee staff, on a bipartisan basis, and the staff of the 
Office of Inspector General, who have all worked hard to create 
a thoughtful and important audit agenda for the House.
    It is my belief that the audit plan will serve to protect 
and enhance our House business operations and will help ensure 
the financial integrity of this institution.
    The Chair lays before the committee a committee resolution 
approving the House of Representatives Inspector General audits 
for 2002. The Inspector General, I would note--it is a pleasure 
to have you here--is available to answer questions. Are there 
any questions of the Inspector General?
    Mr. Hoyer?
    Mr. Hoyer. Mr. Chairman, I do not have any questions, but I 
want to thank the IG for, A, his work and, B, his report and 
information that he has given to me in terms of what we are 
doing, where we are going, how we have done. I think, as I said 
in the past, I think the addition of this office has been a 
very positive addition to the operations of the House of 
Representatives. This was a reform that was brought in in 1995, 
but we had talked about it before than. Unfortunately, we had 
not implemented it. The Republican leadership did. I think it 
has been an excellent step forward, and I thank you for the 
work you have done.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Hoyer.
    Mr. Ehlers, do you have any questions or points of 
discussion?
    Mr. Ehlers. Why am I here?
    The Chairman. You are here for two reasons, Mr. Ehlers. 
One, you are a very valuable member of this committee, and, as 
the third member present, you legally allow us to proceed.
    Mr. Ehlers. I realize that.
    The Chairman. The first is the most important. Would you 
like another couple of reasons?
    Mr. Ehlers. No. I am sorry; I just raced over here, and I 
just got a phone call, so I may have to go and vote. At least I 
am here. I have no further questions.
    Mr. Hoyer. We better go in a hurry.
    Mr. Ehlers. Mr. Chairman, I move a committee resolution 
approving the House of Representatives Inspector General audits 
for 2002 be adopted.
    Mr. Hoyer. Second.
    The Chairman. It has been moved and seconded. The question 
is on the motion. All those in favor signify by saying aye.
    Opposed, no.
    Mr. Ehlers. May I just add, I may have questions later, and 
I will address them directly.
    The Chairman. Without objection.
    Mr. Hoyer. On this side of the aisle, Mr. Chairman, we 
believe ``Ney'' is a very positive term.
    The Chairman. Except when it comes to a vote, I would say. 
It is not that positive sometimes. Let us not have a 
``positive'' vote today.
    The motion is agreed to, and the committee resolution 
approving the House of Representatives Inspector General audits 
for 2002 is adopted.
    I want to thank you. It was your compelling testimony, Mr. 
Inspector General. Thank you. Appreciate it.
    The committee will now consider the creation of the Office 
of History and Preservation, a new department within the Office 
of the Clerk, Mr. Trandahl.
    The Clerk has requested the committee approve the creation 
of the Office of History and Preservation within the Office of 
the Clerk. This action would involve mitigating the current 
Historical Services Division from within the Clerk's 
Legislative Resources Department to a stand-alone department. 
The request includes a proposed reclassification of position 
19-068, Manager, Historical Services, to Chief, Office of 
History and Preservation.
    The proposed reorganization represents the culmination of a 
6-year effort by the House through the Office of the Clerk, at 
the direction of the Committee on House Administration, to fill 
the void created by the unfilled House Historian position to 
establish professional archival and curatorial response and 
support for House records, arts, and artifacts.
    Without objection, I will enter the rest of this in the 
record.
    [The information follows:]

             Creation of Office of History and Preservation

    The Clerk on March 26, 2002, requested the Committee 
approve the creation of an Office of History and Preservation 
within the Office of the Clerk. This action would involve 
migrating the current Historical Services division (eight 
positions) from within the Clerk's Legislative Resource 
Department to status as a stand alone department. The request 
includes the proposed reclassification of position 19-068, 
Manager, Historical Services (HS-11) to Chief, Office of 
History and Preservation.
    The proposed reorganization represents the culmination of a 
six-year effort by the House, through the Office of the Clerk, 
to fill the void owing to the unfilled House Historian position 
and to establish professional archival and curatorial support 
for House records, art, and artifacts. The effort began with 
the Committee's approval in 1995 of the creation of the 
Legislative Resource Center (LRC) as a department of the Clerk. 
The LRC was a consolidation of smaller separate departments of 
the Clerk, together with functions acquired through the 1995 
reorganization. It was intended then that the LRC serve as the 
host entity toward the development of a comprehensive 
historical and preservation resource for the House--one on par 
with the Senate and other governmental entities. By the year 
2000, the Committee had approved the creation within the LRC of 
an historical services division and the appointment of a 
manger, which was soon followed by the appointment of an 
archival specialist. The preservation component was completed 
early this year with the appointment of a curator. The unit 
currently consists of eight positions, which would transfer to 
the proposed new department.
    The Clerk's proposal seeks to guarantee the continued 
effectiveness of the current division. Separation from the LRC 
will allow for more streamlined management and responsiveness 
for services. Furthermore, as a department and not a 
subordinate subdivision, the division and its personnel will be 
more credibly perceived and regarded by entities of the 
Congress, the government and professions. The Clerk has pointed 
out that the current Historical Services division is already 
actively engaged with an array of projects commensurate with 
those that would be within the purview of the new department. 
It is managing the publication of five congressionally approved 
historical publications. Since putting on-line in 1997 the 
Biographical Directory of the United States Congress, it has 
since launched the first comprehensive update and verification 
of the over 10,000 House entries. For the first time, the House 
has the benefit of a professional archival staff, which in 
addition to administering the Clerk's House Rule VII 
responsibilities, has implemented an educational records 
management outreach program for Committees and Members. The new 
curator has been tasked by the Clerk to focus on an inventory 
and preservation program for House art and artifacts, beginning 
with House Committee Chairmen portraits. With the curator, the 
Clerk for the first time can render authoritative curatorial 
support to the House Fine Arts Board. The historical, archival, 
and curatorial expertise of the division are tapped regularly 
by the House in matters pertaining to the Capitol Visitor 
Center.

    The Chairman. It is a very good program. I think it is a 
great job done by the Clerk's Office with a lot of insight, and 
I believe on a historical basis it is going to be of tremendous 
value for this House to preserve the history, keep up with the 
history, and have it available to the citizens of the United 
states. So I commend you on that.
    With that, I lay before the committee a committee 
resolution approving the creation of the Office of History and 
Preservation. The Clerk is here, Mr. Trandahl, to make a 
statement and see if you have any questions.

   STATEMENT OF JEFF TRANDAHL, CLERK, UNITED STATES HOUSE OF 
                        REPRESENTATIVES

    Mr. Trandahl. Actually, what I will do is I will submit the 
statement for the record and the background pieces, but if 
there are any questions that anyone has----
    [The statement of Mr. Trandahl follows:]

    Mr. Chairman, Members of the Committee, thank you for 
inviting me to appear before the meeting of the Committee.
    I appreciate having this opportunity, Mr. Chairman, to 
explain how in the past six years, through the support of this 
Committee, the Office of the Clerk has developed and delivered 
historical services program needs to the House of 
Representatives. As part of that effort, we have 
professionalized and broadened two closely related disciplines: 
archival services in support of House Rule VII records 
requirements and courtesy consultation for Members; and 
curatorial services in support of the Clerk's responsibilities 
to the House Fine Arts Board.
    With the continued vacancy since January 1995 of the office 
of House Historian, the Committee has enabled my office to 
incrementally meet the demand from the House and the public for 
historical services. The effort began in 1995 with the creation 
of the Legislative Resource Center (LRC) within the Office of 
the Clerk. That reorganization helped to better integrate 
within the Clerk's organization the Document Room 
responsibility it had acquired from the defunct Office of the 
Doorkeeper and established an organizational structure within 
which to cultivate and design the foundations for the 
comprehensive historical services required by the House. By 
1997, the resources of the LRC had achieved two significant 
accomplishments: the first continuing archival education and 
consultation program for House Committees and Members, and, the 
launching, with the Senate, of the on-line version of the 
Biographical Directory of the United States Congress. With the 
latter, the LRC took on a major responsibility previously 
administered by the former House Historian.
    By the year 2000 and with the enthusiastic support and 
approval of the Committee, our goal of establishing a credible 
historical services operation became a reality with the 
creation of an historical services unit within the LRC and the 
appointment of a professional manager, who had formerly been 
affiliated with the Center for Legislative Archives of the 
National Archives and Records Administration. That appointment 
was followed shortly thereafter by the addition of a 
professional archivist and early this year, a professional 
curator. Complemented by five additional support positions that 
the Committee approved, the House for the first time has an 
historical, records, and arts resource now on par with the 
Senate and capable of managing the many new responsibilities 
already required by the House as well as those that will be 
needed for the Capitol Visitor Center.
    I am grateful, Mr. Chairman, that the Committee is 
considering my request to establish the current historical 
services unit of the LRC as a new department of the Office of 
the Clerk and to support the necessary funding for its 
operation. This action is necessary for practical as well as 
symbolic reasons. Although the LRC served as a valuable 
incubator of sorts for the development of the unit, the unit 
has matured sufficiently to merit commensurate management and 
operational parity as a department. Symbolically, the status of 
the unit with the Clerk's office counts to its credibility. As 
a department in its own right within the Office of the Clerk, 
the Office of History and Preservation, as it is being proposed 
to be known, would more closely mirror the organizational 
status of its counterparts in the U.S. Senate, which reside 
under the Secretary of the Senate. Such departmental status is 
critical to earning credibility with other governmental 
entities, relevant professional groups, and the general public.
    Mr. Chairman, I am pleased to report to you the 
satisfaction we already enjoy by having a full team on board. 
Our historical staff is at work on new editions of 
congressionally authorized publications, including Asian and 
Pacific Islander Americans in Congress; Black Americans in 
Congress; Hispanic Americans in Congress; and Women in 
Congress. They have been incorporated into the exhibit planning 
process for the Capitol Visitor Center, and are engaged in a 
major verification and updating project for the thousands of 
House entries in the Biographical Directory of the United 
States Congress. Our archivist has quickly secured our position 
within the professional archival associations, enabling us to 
better serve Members who require guidance in retiring their 
personal congressional papers. Now as never before, we have 
been able to proactively educate and counsel House committee 
staff on records management procedures, which will stimulate 
greater compliance with House Rule VII and ensure consistent 
archiving of the non-current records of the House. Finally, I 
am pleased to report that our new curator is working on 
multiple fronts in support of the House Fine Arts Board.
    Mr. Chairman, I appreciate not only your leadership but 
also your good counsel. The progress we have made since your 
becoming Chairman of the Committee has been remarkable. I am 
also grateful for the guidance and assistance I have received 
from the Committee staff, with whom I have the pleasure of 
working with on a regular basis. This completes my statement 
and I am happy to answer any questions you may have. Thank you.

    The Chairman. Mr. Hoyer?
    Mr. Hoyer. Jeff, the Office of Historian has been vacant, I 
guess, since 1995 or early 1996, I forget exactly when. In 
light of what we are doing here, what ramifications, if any, 
does that have to that particular position? I know it is vacant 
and has been for 5 or 6 years.
    Mr. Trandahl. Yes, Mr. Hoyer, the Office of the Historian, 
as you know, was created back in 1987, or 1989, to sort of 
correspond with the celebration of the bicentennial of the 
Constitution. And then subsequently in January 1995, with the 
realignment of staffs, they eliminated the House Historian in 
January, February of 1995.
    The Clerk's Office then became responsible for all of those 
historical functions. Incrementally, we have been trying to add 
in and even improve upon what was previously done in that 
Historian's Office, because we were building in a lot more 
archival staff; we are building in a lot more curatorial 
function as well as this publication and historical research 
function.
    The House Historian by title is not created in this office. 
I am hoping that that is one of the next incremental steps that 
we can take in this process. But as you may be aware, the House 
rules sort of contradict me in this fashion, because they still 
allow the Speaker to be involved in the selection or management 
of the House Historian.
    In the perfect world--in my perfect world, the House 
Historian would be the head of this department and be staffed 
by these people. There are other people in the Capitol who 
obviously have a different opinion where they would prefer it 
would be bifurcated, and there would be a House Historian on 
one side and the staff on the other side doing the nuts and 
bolts.
    So we are still working on that issue. You have every 
commitment from me that that is exactly the direction I want to 
go. But----
    Mr. Hoyer. We are not there yet.
    Mr. Trandahl. Yes, we are not quite there. Hopefully sooner 
than later.
    Mr. Ehlers. Thank you, Mr. Chairman.
    On this one, I have quite a few opinions and thoughts. I 
heartily approve of this, and as the Clerk knows, and as the 
chairman of this committee knows, I have been advocating for 
this activity for some 6 or 7 years now.
    I find it incomprehensible that the House of 
Representatives would be without an Historian, particularly 
since the position was created in law. What bothers me even 
more, however, is the archival aspects of this position and of 
the House. I am amazed at how poorly the archival records of 
the House are accumulated and kept. There is no standard, for 
example, among the Members of the House as to which of their 
papers they should keep. There is no recommendation as to what 
should be done with them after they leave office, and at this 
point, some Members will give them to a local college, some 
will burn them, some will give them to the House Historian. 
There is just no uniformity at all and no overall direction.
    Not every scrap of paper generated in every office is worth 
keeping, but there is a considerable amount of activity in the 
House that should be archived, and we need some very 
knowledgeable people determining what must be archived, setting 
standards for the committees particularly, but also individual 
Members, as to what should be archived and how it should be 
archived.
    I know, for example, that a number of committees and people 
are preserving the records on disks. Now, that is extremely 
dangerous because algorithms change, methods of storage change, 
and I have seen this happen in State government and local 
government. Everything is archived, then they get new 
computers, they have new memory, and they do not upgrade. The 
algorithms are different, and within 10 years, or sometimes 
even 5 years, all the previous information is lost simply 
because none of them have old enough computers or old enough 
software to read it and interpret it.
    So we desperately need standards for archival activity and 
also some guidance for Members as to what should be archived 
and what shouldn't. So I heartily support this proposal, and I 
think it is something that we should have done 8 years ago had 
it not been for opposition from some Members of the House and, 
in fact, some members of this committee.
    Mr. Trandahl. As Mr. Ehlers and I have talked personally 
several times that it is a large initiative in terms of this 
proposal. As well, I just want to thank the committee. I mean, 
we have gone from a place, Mr. Ehlers, where we had two 
positions that basically dealt with the archiving and the 
research part. In the last 2 years here we have been able to go 
from two to eight positions with the help of this committee 
here. And subsequently, now getting this to an independent, 
freestanding office, and giving it the profile and the respect 
it deserves, hopefully, within the institution, we will be able 
to build upon the programs we have already started, whether it 
is archiving or curatorial or the research or the documents.
    There are four publications that the committee has 
authorized that we create, The Women in Congress, Black 
Americans in Congress, Hispanic Americans in Congress and Asian 
Americans in Congress, in conjunction with the Library.
    Mr. Ehlers. May I add, Mr. Chairman, it is not that this is 
going to cost us a lot of money, because we are doing it in a 
haphazard way now, but also the expertise. We have expertise at 
beck and call at the Federal Archives, but also at the Library 
of Congress. Not that they always agree on how to do it, but 
nevertheless, we have two great sources of free assistance 
there.
    The Chairman. The Chair will note there are no current 
Members sitting at the dais who opposed this at any particular 
time. So we do not need a roll call.
    With that, Mr. Ehlers, I would entertain a motion.
    Mr. Fattah. Mr. Chairman?
    The Chairman. I am sorry, Mr. Fattah.
    Mr. Fattah. If I could just ask, you mentioned a Fine Arts 
Board in your statement.
    Mr. Trandahl. Yes.
    Mr. Fattah. Can you tell me what the focus of----
    Mr. Trandahl. Yes. The Fine Arts Board is an entity that 
consists of the House members of the Joint Committee on the 
Library. It is a group that oversees with me--as the Clerk, I 
have the curatorial responsibility of what is called the House 
collection. Basically a lot of the paintings, the statues, even 
the architectural features in some of the buildings here we 
have responsibility for, and that Board oversees, for example, 
if the chairman of a committee is getting a portrait painted, 
it has to be adopted and accepted by the Fine Arts Board before 
it can become a part of the House collection.
    Mr. Fattah. But all of the art work in the House is part of 
the arts collection, not just the portraits of former Chairs?
    Mr. Trandahl. Right. There are actually three separate 
collections on Capitol Hill. This is where it gets a little 
confusing. The Senate has a collection. The House has a 
collection. And then is there a joint collection that is 
overseen by the Capital Preservation Commission and also the 
Joint Committee on the Library. That joint collection, for 
example, the statues in Statuary Hall, the 100 that were 
authorized from the States, we have 97 currently, those were 
actually accepted by the Joint Committee on the Library because 
they could be located in the House or the Senate side.
    Mr. Fattah. I do understand. Thank you.
    I am in full support of what you want to do. I would be 
interested in you sharing with the committee in terms of the 
House collection to what degree it depicts in any of its 
artistic renderings African Americans and others.
    Mr. Trandahl. Sure.
    Mr. Fattah. There seems to be a dearth of that in the 
House's collection, and what you might want to do about that 
might be of interest to the committee.
    Mr. Trandahl. And just so you know, we are at a real 
opportunity, I think, relative to the Capitol and artworks just 
with the addition of this Capitol Visitors Center. It allows us 
great opportunity to be adding to the collection where we find 
holes in history and representation. So----
    Mr. Fattah. There is one hole that I have taken note of. 
Thank you.
    The Chairman. Thank you. That is well noted and 
appreciated.
    The Chair recognizes Mr. Ehlers.
    Mr. Ehlers. Mr. Chairman, I move that the committee 
resolution approving the creation of the Office of History and 
Preservation be adopted.
    The Chairman. The question is on the motion.
    All those in favor, signify by saying aye.
    Those opposed, nay.
    With that, the ayes have it, the motion is agreed to, and 
the committee resolution approving the creation of the Office 
of History and Preservation is adopted.
    I ask unanimous consent that Members have 7 legislative 
days to submit material into the record and for materials 
submitted by the Inspector Genral and the Clerk of the House to 
be entered at the appropriate place in the record.
    Without objection, the material will be so entered.
    [The information follows:]

 Committee Resolution 107-6, The Creation of the Office of History and 
                              Preservation

    Resolved, That the Committee on House Administration hereby 
approves the proposal to create The Office of History and 
Preservation, a new division within the Office of the Clerk of 
the House of Representatives, attached hereto and incorporated 
herein.

    The Chairman. I ask unanimous consent that the staff be 
authorized to make technical and conforming changes on all 
matters considered by the committee in today's meeting.
    Without objection, so ordered.
    Having completed our business, the committee is adjourned.
    [Whereupon, at 2:30 p.m., the committee was adjourned.]

                                <greek-d>

</pre></body></html>
